In The SUPREME COURT Of The UNITED STATES
No.
KRIS KASZUBA, dba Hollywood Group
Petitioner,
v.
Andre Iancu, Director of USPTO
Intervenor.
CERTIFICATE OF SERVICE
I certify that all parties have been served with three copies of the
PETITION FOR A WRIT OF CERTIORARI and APPENDIX by USPS First Class
Mail and a copy by email this 3rd day of May, 2021 to:
US Patent and Trademark Office
Office of General Counsel
600 Dulaney Street
Alexandria, Virginia 22314
Mr. Thomas Casagrande
Principal Attorney, USPTO
Email: Thomas.Casagrande@uspto.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 3, 2021

/AB/ electronic signature
Antonia Bebar
2683 Via de la Valle, # G246
San Diego, CA 92014
antoniabeb@gmail.com

